OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/MEXICO’S
RULE OF LAW AND HUMAN
RIGHTS PROGRAM
AUDIT REPORT NO. 1-523-11-001-P
JANUARY 12, 2011




SAN SALVADOR, EL SALVADOR
Office of Inspector General


January 12, 2011

MEMORANDUM

TO:             Acting USAID/Mexico Director, Kay Freeman

FROM:           Regional Inspector General/San Salvador, Catherine M. Trujillo /s/

SUBJECT:        Audit of USAID/Mexico’s Rule of Law and Human Rights Program
                (Report Number 1-523-11-001-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them into the final
report as appropriate. We included management comments in their entirety in Appendix
II.

The final report includes eight recommendations to strengthen USAID/Mexico’s rule of
law and human rights program. Based on management’s comments, we deleted
recommendation 4 in the draft report from the final report and renumbered draft report
recommendations 4 through 8 in the final report accordingly. Based on management’s
comments, we consider that we reached management decisions on recommendations 1
and 2 and 4 through 8. Please provide the Office of Audit Performance and Compliance
Division (M/CFO/APC) with the necessary documentation to achieve final action for
these recommendations.

Regarding recommendation 3, we did not reach a management decision. Please
provide within 30 days the additional information discussed within the evaluation of
management comments under this recommendation.

I want to express my appreciation for the cooperation and courtesy extended to my staff
during the audit




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. (503) 2501-2999—Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Audit Findings ................................................................................................................. 4

     Rule of Law Program Lacks Strategic Focus .............................................................. 4

     Contracting Mechanism Used for Rule of Law Program is Not Appropriate ............... 6

     Performance Indicators and Targets Are Inappropriate
     Measures of Program Progress .................................................................................. 8

     Lack of Effective Program Oversight......................................................................... 11

     Training Effectiveness is not Evaluated .................................................................... 12

     TraiNet Reporting Not Accurate ................................................................................ 12

Evaluation of Management Comments ....................................................................... 14

Appendix I – Scope and Methodology ........................................................................ 17

Appendix II – Management Comments ....................................................................... 19

Appendix III - Statement of Work Comparisons......................................................... 27
SUMMARY OF RESULTS
Only about 37 percent of the respondents to a survey of the Mexican public conducted in
June 2007 expressed confidence in the country’s judicial system. This lack of
confidence is a major constraint on the country’s continued democratic transition. The
weaknesses of Mexico’s criminal justice system contribute to high levels of criminal
impunity, poor protections for individuals accused of a crime, and low public confidence
in the judicial sector.

In response to the Mexican government’s request for increased cooperation and
assistance, the United States and Mexico announced the Merida Initiative, a multiyear
proposal for $1.4 billion in U.S. counterdrug and anticrime assistance to Mexico and
Central America. One of the initiative’s four primary goals is to improve the capacity of
justice systems in the region.

In 2008, Mexico introduced a series of constitutional and legislative changes calling for
reforms touching virtually all aspects of the judicial sector, including police, prosecutors,
public defenders, the courts, and the penitentiary system. The new laws require the
reforms’ implementation by May 2016 at the state and federal levels.

To support the Government of Mexico’s reform agenda, USAID focused its rule of law
activities within the following areas:

      Continuing police education and training program
      Human rights training for police, prosecutors, and other officials
      Judicial exchanges
      Support to human rights nongovernment organizations and civil society
      Support for law schools and bar associations
      Financial support for United Nations Human Rights Office

In April 2009, USAID/Mexico amended its $14.4 million rule of law contract awarded to
Management Sciences for Development Inc., to add activities that would support the
Merida Initiative and the criminal justice reforms. USAID/Mexico also awarded a 3-year,
$44.1 million cost-type contract to Management Systems International (MSI) in June 2009.
The objectives of the program are to work with state and federal justice institutions to
strengthen their capacity to improve transparency, public oversight, and public
accountability, and better serve Mexican citizens under the new constitutional reforms that
shape the police and criminal procedure codes. In August 2009, USAID/Mexico awarded
the United Nations High Commissioner for Human Rights a 2-year, $1 million grant to
strengthen national and local government and civil society organizations in order to help
bridge gaps in human rights implementation at the national level. As of June 30, 2010,
cumulative obligations and expenditures for the three awards totaled approximately $26
million and $18 million, respectively.




                                                                                           1
The objectives of the audit were to determine if USAID/Mexico’s rule of law and human
rights program was achieving its main goals, which are to support the implementation of
the criminal justice reforms at the federal and state levels and to strengthen civil society
organizations’ promotion and oversight of human rights. Furthermore, the audit also
determined if the mission’s program reporting was providing stakeholders with complete
and accurate information on the progress and the results achieved.

Over the years, USAID/Mexico has supported a broad scope of activities in support of
Mexico’s justice reform. In the last few years, USAID/Mexico has facilitated exchanges
between attorneys from the United States and other countries with members of the
Mexican justice sector at the federal level, and has played a key role in helping to draft
the federal code that focused on starting the justice reform. As well, USAID/Mexico
provided technical assistance to support the judicial reforms in Chihuahua, by training
judicial officials on oral advocacy, and supporting the state of Oaxaca to promote its
mediation initiatives through stakeholder exchanges and the input of mediation experts.

However, the audit found that under the current awards-implementing activities to
support the rule of law program, USAID/Mexico has not delivered technical advisory
services in a strategic manner to reach maximum efficiency, effectiveness, and
sustainability, mainly because it lacks a strategic focus (see page 4). As a result,
USAID/Mexico’s rule of law activities has had limited success in achieving their main
goals: to support the implementation of the criminal justice reforms at the federal and
state levels and to strengthen civil society organizations’ promotion and oversight of
human rights.

The audit found that USAID/Mexico generally provided accurate information related to
standard indicators in its performance plan and report for fiscal year 2009. However, the
performance indicators and their respective targets are not appropriate for measuring
progress toward accomplishing the subobjectives (see page 8).

As well, the audit determined that the contract mechanism that USAID/Mexico used to
award the task order to MSI was not in accordance with procurement regulations (see
page 6).

In addition, the audit disclosed aspects of program management needing improvement.
First, USAID/Mexico’s technical officers responsible for the rule of law projects have not
effectively carried out all their responsibilities in accordance with USAID policy and
internal mission orders (see page 11). Second, USAID/Mexico’s contractor has not
developed systems for evaluating the effectiveness of the training it delivers (see page
12). Lastly, USAID/Mexico’s reported numbers of beneficiaries trained are not accurate
(see page 12).

To assist the mission in improving the efficiency and effectiveness of its rule of law
program, this report recommends that USAID/Mexico:

   Exert technical control over the contract and require Management Systems
    International to develop an implementation strategy that outlines how it intends to
    identify the sites where it intends to work and the methodologies it intends to deploy
    for identifying the training needs and providing training (see page 6).




                                                                                          2
   Conduct a portfolio review to examine the strategic and operational issues and
    determine whether USAID-supported activities are supporting the implementation of
    the criminal justice reforms at the federal and state levels and strengthening civil
    society organizations’ promotion and oversight of human rights (see page 6).
   Either re-compete the contract for technical services or prepare the appropriate
    justification required by the Competition in Contracting Act of 1984 for other than full
    and open competition (see page 8).
   Revise its current performance indicators and associated targets for the rule of law
    program so that they will assess progress toward the program’s overall goals and
    objectives (see page 11).
   Update its performance management plan for the rule of law program (see page 12).
   Strengthen its internal controls so that technical officers implement their delegated
    duties in accordance with USAID policy (see page 12).
   Establish procedures for systematically following up with training participants to
    assess the impact and effectiveness of training (see page 12).
   Institute procedures to consistently collect and input training data into the USAID
    training network (see page 13).

Appendix I describes the audit’s scope and methodology.

In its response to the draft audit report, USAID/Mexico agreed with 6 of 9
recommendations. Based on management’s comments and further discussions with the
mission, we deleted Recommendation 4 in the draft audit report from the final audit
report and renumbered Recommendations 4 through 8 accordingly. We consider that
we reached management decisions on recommendations 1 and 2 and 4 through 8. We
did not reach a management decision on recommendation 3. The mission’s comments
are included, in their entirety, in appendix II.




                                                                                          3
AUDIT FINDINGS
Rule of Law Program Lacks Strategic Focus
Management Systems International’s (MSI) technical proposal outlined a strategic
approach for reaching maximum efficiency, effectiveness, and sustainability. MSI
proposed to design activities to achieve synergies across project subcomponents,
sharing information, products, and approaches. MSI’s approach addressed establishing
clearinghouses to identify, evaluate, and propagate best practices, while also building
consensus within and across topical areas. Its proposed implementation strategy also
addressed designating pilot sites for developing and testing methodologies and concrete
products, supporting adjustments and corrections before expanding to other sites. MSI
stated that support for implementation planning and sequencing of activities would
enable its rule of law team and counterparts to anticipate and plan for financial and
operational requirements from new legislation.

However, the audit found that MSI did not execute its activities as proposed—effectively
identifying, evaluating, and propagating best practices, and designating pilot sites for
developing and testing methodologies and concrete products, supporting adjustments
and corrections before expanding to other sites. Rather, MSI has expended resources
across a broad spectrum of activities in a majority of the Mexican states. As of August
2010, MSI had provided 223 training events in 21 states and the Federal District.
However, only six states (Chihuahua, Nuevo León, Oaxaca, Morelos, Baja California,
and Zacatecas) have advanced toward full implementation of the reforms, and each had
implemented reforms prior to the passage of the federal reforms.

During one quarter, MSI reported the following accomplishments:

          MSI trained 6,018 justice officials across 23 states on trafficking in persons,
           criminal justice, alternative justice, human rights, and police training.
          Out of 6,018 officials trained, MSI trained 1,102 justice sector personnel from 12
           different states on how to handle cases dealing with trafficking in persons.
          MSI trained 827 officials from nine different states on methods of alternative
           justice.

USAID/Mexico’s rule of law program has lacked strategic focus in part because of the
contractual statement of work. The broad nature of the statement of work makes it
challenging to deliver technical support in a deliberate, methodical manner.
USAID/Mexico’s contract with MSI addresses two objectives:                 (1) support the
implementation of the criminal justice reforms at the federal and state levels while
strengthening transparency and accountability; and (2) strengthen justice sector
institutions’ ability to reduce violent and organized crime without violating human rights,
and strengthen civil society organizations’ promotion and oversight of human rights. MSI
is required to be capable of providing technical assistance and services to all 33
jurisdictions, 1 giving priority to Chihuahua, Baja California, and Sonora. MSI’s second
level of priority is to support advisory and technical services to jurisdictions that have
passed the justice reforms. MSI should also provide logistic support to other U.S.

1
    The 33 jurisdictions comprise 31 states, Mexico Federal District, and the federal government.


                                                                                                    4
Government (USG) agencies, complementing rule of law activities through their experts,
training facilities, and materials. These broad responsibilities prevent MSI from taking
the more focused and deliberate approach envisioned in the technical proposal.

A second reason why USAID/Mexico’s rule of law program lacks strategic focus is that
during the first year of implementation, the contracting officer’s technical representative
did not exert technical control over the contractor, guiding decisions on how to respond
effectively to the varying needs across the country (see page 11). At the onset of the
rule of law program, USAID/Mexico determined that a contract was the most appropriate
implementing mechanism due to the sensitive and changing political circumstances in
Mexico, acknowledging that even though contracts are more management intensive, it
needed to exert technical control over the program to respond to rapid fluctuations in the
country’s environment.

USAID/Mexico has not conducted a portfolio review to gauge the progress of the actions
taken, as required by Automated Directives System (ADS) 203.3.7. Over the past year,
USAID/Mexico’s rule of law program has dedicated technical advisory services across
many training venues to meet the deliverables for each of the award components.
However, the training has covered such broad areas that it is difficult to draw any cause-
and-effect relationships between the training and USAID/Mexico’s rule of law goals.

Achieving the Government of Mexico’s reform goals across all 33 jurisdictions in Mexico
is ultimately the Government of Mexico’s responsibility. The process to reach that goal
is extremely complex because it involves all aspects of the judicial sector. An effective
integrated approach for at least one jurisdiction is imperative if USAID/Mexico intends to
contribute to the Government of Mexico’s justice reform goals, which calls for the
following:

   1. Changes to criminal procedure by introducing new oral, adversarial procedures,
      alternative sentencing, and alternative dispute resolution mechanisms
   2. Greater emphasis on the rights of the accused
   3. Modifications to police agencies and their role in criminal investigations
   4. Tougher measures for combating organized crime

USAID/Mexico could make a significant contribution by taking a strategic approach to
reaching maximum efficiency, effectiveness, and sustainability.        MSI’s proposed
approach to design pilot sites for developing and testing methodologies and concrete
products, supporting adjustments and corrections before expanding to other sites, is
sound. If USAID/Mexico works with MSI to focus its efforts in this direction, then it will
better position itself to provide the Government of Mexico examples of a successful
integrated approach to justice reform that the Government of Mexico can replicate
across other states.

As of July 2010, MSI had billed USAID/Mexico approximately $8.7 million for technical
advisory services delivered within the first year. If the program continues without a
strategic focus, then USAID/Mexico runs the risk of not demonstrating an effective
sustainable impact at the end of its 3-year contract for estimated expenditures of $44
million. USAID/Mexico will be able to demonstrate that it supported training throughout
Mexico, but reform at all levels of the justice sector is questionable.




                                                                                         5
    Recommendation 1. We recommend that USAID/Mexico exert technical control
    over the contract and require Management Systems International to develop an
    implementation strategy that outlines how it intends to identify the sites where it
    intends to work and the methodologies it intends to deploy for identifying the
    training needs and execution of training.

    Recommendation 2. We recommend that USAID/Mexico conduct a portfolio
    review to examine the strategic and operational issues and determine whether
    USAID-supported activities are supporting the implementation of criminal justice
    reforms at the federal and state levels and strengthening civil society
    organizations’ promotion and oversight of human rights.

Contracting Mechanism Used for
Rule of Law Program is not
Appropriate
In the absence of an indefinite quantity contract 2 (IQC) offering technical advisory
services on rule of law areas, USAID/Mexico turned to an IQC that USAID/Washington
awarded to provide services for encouraging global anticorruption and good governance
efforts (ENGAGE). USAID/Washington awarded the ENGAGE IQC to provide a wide
array of support services encompassing short- and long-term technical assistance and
other support in innovative anticorruption, transparency, integrity, and accountability
program areas. According to Federal Acquisition Regulation 16.505(a)(2), “orders shall
be within the scope” of an indefinite-delivery contract. As well, USAID’s supplemental
policy to ADS 302, Indefinite Quantity Contract (IQC): Task Order Work Statement
Development Checklist, states that the task order must fit within the scope of the IQC
statement of work.

The audit determined that the statement of work negotiated with MSI did not adequately
fit within the statement of work under the ENGAGE IQC. The areas that the ENGAGE
IQC covers are materially different from the statement of work that USAID/Mexico
designed for its rule of law program. Although USAID designed the ENGAGE IQC to
support anticorruption reforms within the economic, political, and social sectors, the MSI
contract supports the implementation of specific criminal justice reforms at the federal
and state levels, while strengthening justice sector institutions’ ability to reduce violent
and organized crime without violating human rights (see specific language differences in
appendix III).

Furthermore, there is a material difference between the tasks and deliverables required
under the ENGAGE IQC and the vast majority of those that USAID/Mexico contracted
with MSI. For example, the ENGAGE IQC requires the contractor to design tasks and
deliverables centered on a broad range of technical assistance and other resources
necessary to develop and implement strategies to curb corruption in economic, political,

2
  Federal acquisition regulation 16-504 (a) describes an indefinite quantity contract as one that
provides for an indefinite quantity, within stated limits, of supplies or services during a fixed
period. The Government places orders for individual requirements. Quantity limits may be stated
as number of units or as dollar values.



                                                                                               6
and social service sectors. By contrast, the task order calls for MSI to provide technical
assistance and training in support of Mexican justice reform by assisting as many
Mexican states as possible in all stages of code reforms, as well as strengthening the
functioning of key justice sector institutions; assist Mexico’s implementation of oral,
adversarial reforms at the federal level; and support professional peer exchanges
between Mexican federal and state judges with judges from the United States and other
countries that practice oral, adversarial trials.

As required by USAID policy, the contracting officer technical representative (COTR) for
the ENGAGE IQC reviewed USAID/Mexico’s program description and initially
determined that there was not a clear fit with the ENGAGE statement of work. The
reason given was that the program description needed to address specifically its focus
on anticorruption, transparency, and accountability. To rectify the issue and make the
program description fit, the COTR recommended that USAID/Mexico consistently
include the transparency, accountability, and anticorruption goal in the program.
Second, the COTR recommended that the performance management plan include at
least one indicator of overall anticorruption progress. With these minor changes, the
COTR approved the use of the ENGAGE IQC.

The successful implementation of Mexico’s criminal justice reforms with USAID technical
support will ultimately improve the quality of public services and access to those services
as well as eliminate corruption; however, the objectives of the rule of law contract are not
solely to advise and train on anticorruption reforms within the economic, political, and
social sectors.

One of the driving reasons why USAID/Mexico selected the ENGAGE contract was
because it wanted to expedite the award and implementation of its rule of law program.
When USAID/Mexico began the award process, it was under time pressure to issue a
statement of work to the multiple contractors eligible to compete under the ENGAGE
IQC because mission management wanted to report completed actions to members of
the House Appropriations Committee.           As a result, USAID/Mexico asked
USAID/Washington to expedite review and approval of its program description to allow it
to proceed under the ENGAGE IQC.

As a result, USAID did not comply Federal Acquisition Regulation 16.505(a)(2), that
requires “orders shall be within the scope” of an indefinite-delivery contract in awarding a
task order under the ENGAGE IQC. By limiting the contract selection only to contractors
eligible to compete under the ENGAGE IQC, the mission may not have selected the
most qualified contractor to perform the work. In prior protests, the Government
Accountability Office (GAO) decided that awards of task orders for work outside the
scope of an IQC are subject to the statutory requirement for full and open competition
set forth in the Competition in Contracting Act of 1984 3 , absent a valid determination that
the work is appropriate for procurement on a sole-source basis or with limited
competition.




3
    Public Law 98-369, as codified in 41 U.S.C. 253




                                                                                           7
   Recommendation 3. We recommend that USAID/Mexico either re-compete the
   contract for technical services or prepare the appropriate justification required by
   the Competition in Contracting Act of 1984 for other than full and open
   competition.

Performance Indicators and Targets Are Inappropriate
Measures of Program Progress
According to Automated Directives System (ADS) 203.3.5.1, data should be sufficiently
precise to present a fair picture of performance and enable management decision-
making at the appropriate levels. Stable and consistent data collection processes and
analysis methods support reliability of data over time. Data should be timely enough to
influence management decision-making at the appropriate levels. Furthermore, in
establishing targets to measure progress, ADS 203.3.4.5 states that assistance objective
teams should set targets that are ambitious but achievable given USAID (and other
donor) inputs. Targets that are set too low are not useful for management and reporting
purposes. Assistance objective teams are accountable for achieving the targets and
should plan for the analysis and interpretation of actual performance data against the
performance targets.

The Merida Initiative requires immediate results to demonstrate impact to both the
Government of Mexico and the United States. USAID/Mexico designed the current rule
of law contract under two different components with discreet subobjectives for MSI to
achieve that support each of the Merida Initiative components. Under the contract
component for “Federal and State Level Implementation of Criminal Justice”, MSI is
required to design activities to support four subobjectives covering 1) institution building
and rule of law, 2) judicial exchanges, 3) pre-trial case resolution alternatives, and 4)
continuing police education. Under the contract component, for “Justice Sector and Civil
Society Organizations Promotion of Human Rights”, MSI is required to design activities
to support four subobjectives covering 1) victim restitution, 2) human rights training for
police, prosecutors and other officials, 3) support for human rights nongovernmental
organizations, and 4) support to citizen participation councils.

Under these subobjectives, MSI is required to design, implement, measure, and report
on its activities across 44 specific performance indicators, some of which have quarterly
targets and each of which has annual and life-of-project targets. USAID/Mexico’s grant
agreement with the United Nations High Commissioner for Human Rights (UNHCHR)
requires UNHCHR to design, implement, measure, and report on its activities across 116
indicators.

The performance indicators and their respective targets are not appropriate for
measuring progress toward accomplishing the subobjectives.              USAID/Mexico’s
performance indicators and targets incorporated as requirements in its contract and
grant are not sufficiently precise to present a fair picture of performance. The data
required to measure performance against a number of the indicators are not available on
a timely basis. Furthermore, the performance that USAID/Mexico desires to measure in
a number of instances is not within the implementers’ or USAID/Mexico’s control.
USAID/Mexico did not always establish targets in accordance with USAID policy. Based
on an analysis of reported results and targets for the life of project and the first year
(fiscal year 2010), the audit concludes that USAID/Mexico’s targets for MSI’s results are


                                                                                          8
not in all respects useful for measuring achievements. Additionally, USAID/Mexico has
not developed targets for UNHCHR’s indicators.

As of the end of third quarter 2010, MSI was able to report progress against only 13 of the
20 indicators on which it is required to report monthly and quarterly. MSI is required to
track performance on 44 indicators, of which 20 are not under its direct control; therefore,
MSI cannot control the quality and timeliness of the data required to report results. The
following examples illustrate the inappropriateness of some of the indicators.

       Under the component Continuing Police Education and Training Program, MSI is
        required to measure progress against three indicators over which it has no
        control—number of police with basic education-level certificates, number of
        police enrolled in a university-level course, and number of jurisdictions with
        bachelor’s degree programs as part of their continuing education program.

       MSI has not accurately defined seven performance indicators measuring the
        number of people trained. As a result, MSI may count the same individual
        attending multiple training sessions.

       MSI measures progress on 17 output indicators. According to USAID policy,
        outputs are lower-level steps that are essential in achieving changes that affect a
        broad segment of society. Outputs are generally under the direct control of an
        implementing entity (grantee or contract institution) using resources provided. In
        the case of MSI, not all output indicators have a direct link to the subobjective.

During project implementation, USAID/Mexico did not establish realistic targets and
implementers lacked clear guidance on procedures for reporting on implementation
activities and reviewing the resulting data. As the following table shows, as of June 30,
2010, MSI reported that it exceeded the fiscal year (FY) 2010 targets for 10 of the 13
indicators, reporting achievements significantly in excess of its year one targets.
Moreover, MSI reported that as of third quarter 2010 it had exceeded the life-of-project
targets on 5 of the 13 indicators.

              Status of Indicator Results as of June 30, 2010
                                                   Year 1                                Life-of-
                                                                          Percentage
            Performance Indicator                 FY 2010    Achieved                    Project
                                                                           Achieved
                                                   Target                                Target

Number of Alternative Justice Centers                1          63           6,300             5
strengthened
Number of Alternative Justice Centers created
(for conciliation, mediation, and restorative        2           6            300          20
justice)
Number of police who earn certificates in
improved, transparent administrative functions,    500          643           129        10,000
reporting, and other capabilities to reduce
corruption




                                                                                          9
                                                       Year 1                           Life-of-
                                                                           Percentage
             Performance Indicator                    FY 2010   Achieved                Project
                                                                            Achieved
                                                       Target                           Target

Number of local jurisdictions that implement state
legislation concerning trafficking in persons,          1          4          400             5
consistent with the new federal law against
human trafficking
Number of jurisdictions in geographic strategic
areas where law enforcement agencies are
trained to identify victims and make service            2          20        1,000        10
referrals to victims of trafficking in persons and
other serious crimes
Number of federal or state departments that
conduct information campaigns against trafficking       1          5          500             5
in persons
Number of justice sector personnel trained to
investigate trafficking in persons cases and other     500       2,245        449        5,000
serious crimes
Number of justice sector personnel trained to
handle victims of serious crimes, including torture    500        528         106       10,000
and trafficking in persons
Number of police, prosecutors, and other officials
trained in the new code of criminal procedures,
the constitutional reforms, and alternative case       200       1,097        549        1,000
resolution mechanisms (mediation, conciliation,
and restorative justice) within the context of
human rights
Number of human rights civil society
organizations staff and volunteers trained in the
context of human rights: the new code of criminal
procedure and litigation in the new criminal           200       2,311       1,156       1,000
justice system, constitutional reforms, and/or
alternative mechanisms for resolution of case
(mediation, conciliation, and restorative justice)

USAID/Mexico needs to know whether it is meeting its performance goals and must be
able to articulate these achievements to external audiences, including Congress, the
Office of Management and Budget, other USG agencies, the public, donors,
multinational organizations, host country partners, and nongovernmental organizations.
According to ADS 200.3.1.2, USAID measures progress by selecting performance
measures and establishing performance targets for these measures before
implementation takes place.

It is critical under its 3-year contract that MSI monitor and capture activity outputs that
show a direct relationship to the subobjectives that USAID and the Government of
Mexico intend to achieve. MSI has dedicated resources for monitoring and evaluation
and has developed a system to collect, summarize, and report on the data per the terms
of its contract. However, if USAID cannot rely on the information to make programmatic
decisions or to determine if program resources are being expended in the most efficient
and effective manner, then MSI’s resources are not serving a useful purpose.


                                                                                        10
    Recommendation 4. We recommend that USAID/Mexico revise its current
    performance indicators and associated targets for the rule of law program so that
    they will assess progress toward the program’s overall goals and objectives.

Lack of Effective Program Oversight
The contracting officer’s technical representative (COTR) and agreement officer’s
technical representative (AOTR) each have key oversight responsibilities for directing
and administering contracts and grants. USAID’s procedures 4 for designating a COTR
and AOTR outline those responsibilities. For example, the COTR serves as the
technical liaison between the contracting officer and the contractor because of the
COTR’s unique responsibility to monitor the contractor’s performance in achieving the
contract’s purpose. The AOTR is responsible for providing technical and administrative
oversight to the implementer. USAID/Mexico imposed additional requirements with the
issuance of USAID/Mexico Technical Officer—Administrative Notice 09/05, requiring
technical officers to complete trip reports for all in- and out-of-country travel.

USAID/Mexico’s technical officers responsible for the rule of law projects have not
effectively carried out all their responsibilities in accordance with USAID policy and
internal mission orders. During the audit, the Office of Inspector General identified the
following deficiencies in program oversight:

   USAID/Mexico’s performance management plan is not updated to accurately reflect
    what the current rule of law program is aiming to accomplish.
   The COTR for the Management Sciences for Development Inc. (MSD) contract did
    not adequately monitor MSD’s request for reimbursements, approving vouchers for
    funds that exceeded the funding limitations.
   The COTR for the MSD contract could not explain or support any decisions
    permitting MSD to shift a significant amount of its direct costs away from direct
    activities to other direct costs. As a result, no explanation could be given why as of
    the end of the contract, MSD delivered 35 percent fewer workdays than originally
    contracted for, incurred a 33 percent increase in other direct costs above those
    initially negotiated, and did not deliver a number of the activities expected of it.
   UNHCHR has not consistently complied with USAID’s branding policies. Despite
    knowledge of this fact, the AOTR has not directed UNHCHR to comply or assisted it
    with obtaining a waiver.
   The COTRs and AOTRs did not document site visits for most of the fieldtrips made.
    For example, the mission issued 29 travel orders for FY 2009; however, the mission
    had documented support for only 2 of the 29 site visits.
   The COTR had not formally approved work plans, reports and other deliverables
    required by the contract.



4
  Mandatory reference for ADS 302-Procedures for Designating the COTR for Contracts and
Task Orders, and an additional help for ADS 303- Agreement Officer’s Technical Representative
(AOTR) Designation – Cooperative Agreement Administration.


                                                                                          11
Mission management has not held the technical officers accountable for performing their
responsibilities. As a result, the mission has put itself in a vulnerable position on a
number of levels. Lack of approved life-of-project work plans and annual work plans
places the mission at risk if an implementing partner makes a unilateral decision to take
on activities that are outside the objectives of the award. With respect to contracts
especially, COTRs’ failure to carry out their duties and responsibilities effectively will
impede the successor COTR’s ability to manage the contract and possibly jeopardize
the program for which it was awarded.

      Recommendation 5.      We recommend that USAID/Mexico update its
      Performance Management Plan for the rule of law program.

      Recommendation 6. We recommend that USAID/Mexico strengthen its internal
      controls so that technical officers implement their delegated duties in accordance
      with USAID policy.

Training Effectiveness is not Evaluated
USAID policy ADS 253.3 requires missions that expend USAID funds for Participant
Training design, implementation or evaluation activities to design and implement
participant training for results and impact. Specifically, such missions must plan, track,
manage for results, and report on their participant training activities as part of their
broader performance measurement, evaluation, and reporting requirements. ADS
203.3.2 also states that missions are responsible for measuring progress toward the
desired results identified in the planning stage to achieve foreign assistance objectives.

USAID/Mexico has not adhered to USAID policy with regard to assessing the degree of
results and impact from the training funded through its contract with MSI. For example,
as of August 30, 2010, MSI reported training 14,483 people in political processes,
alternative justice, anticorruption, management skills, and legislative functions and
processes. However, USAID/Mexico has not developed systems for evaluating the
effectiveness of the training, primarily because it did not consider the development of a
formal evaluation system during the design stage of the training.

Without some type of assessment of the effectiveness of training, USAID and its
partners do not know if the training programs are having the desired impact or if they
should better tailor the training to the needs of the participants. Assessing the impact of
training may yield greater returns on training investments and provide management
better information to determine future training needs.

      Recommendation 7. We recommend that USAID/Mexico establish procedures
      for systematically following up with training participants to assess the impact and
      effectiveness of training.

TraiNet Reporting 5 Not Accurate
ADS 253.3 states that sponsoring units must—


5
    Training Results and Information Network


                                                                                            12
      Design, implement, and track the training or program event for results and
       impact,
      Design training programs that support USAID objectives or other USG initiatives,
      Report on their participant training activities as part of their broader performance
       measurement, evaluation, and reporting requirements, and
      Design and carry out participant training activities with cost control and cost-
       sharing practices whenever possible.

ADS 253.3.4.5 (b) requires sponsoring units to enter data in Training Results and
Information Network (TraiNet) for any in-country training programs or subprograms of 2
consecutive class days or more in duration, or 16 contact hours or more scheduled
intermittently. The policy also states that sponsoring units should report any and all
other in-country training events that are critical to their development efforts.

USAID/Mexico is not complying in all respects with the aforementioned policy. For
example, the training data entered are incomplete and inconsistent. To illustrate, in its
third quarter MSI reported 8,593 people trained; in contrast, the mission reported in
TraiNet 4,068 people trained. USAID/Mexico includes in its operational plan the number
of people trained reported by TraiNet.

These inconsistencies occurred because the mission and MSI do not have a consistent
definition for what constitutes training. Furthermore, neither has applied consistent
practices for collecting training data. As a result, USAID/Mexico’s training database is
incomplete and inaccurate, which has led to agency reporting of inaccurate results.
Moreover, the mission cannot rely on this important tool for planning and management
purposes.

   Recommendation 8. We recommend that USAID/Mexico institute procedures to
   consistently collect and input training data into the USAID training network.




                                                                                        13
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft audit report, USAID/Mexico agreed with 6 of 9
recommendations. Based on management’s comments and further discussions with the
mission, we deleted Recommendation 4 in the draft audit report from the final audit
report and renumbered Recommendations 4 through 8 accordingly. As well, we revised
Recommendation 5 (previously Recommendation 6). Summarized below are the
comments and the audit team’s evaluation.

Regarding Recommendation 1, the draft report audit recommended that USAID/Mexico
exert technical control over the contract and require Management Systems International
to develop an implementation strategy that outlines how it intends to identify the sites
where it intends to work and the methodologies it intends to deploy for identifying the
training needs and execution of training.           The mission concurred with the
recommendation and addressed the measures it has already taken and plans to take to
address the recommendation. The mission is adjusting the strategy that will result in a
contract amendment, which it anticipates to complete by April 30, 2011. A significant
change that the mission addressed is it plans to amend the current organizational
structure by creating a Merida Initiative office. Pending authorization, the mission
anticipates having this office operational by July 2011. Based on the mission’s
described actions we consider a management decision reached on Recommendation 1.

Regarding Recommendation 2, the draft report audit recommended that USAID/Mexico
conduct a portfolio review to examine the strategic and operational issues and determine
whether USAID-supported activities are supporting the implementation of criminal justice
reforms at the federal and state levels and strengthening civil society organizations’
promotion and oversight of human rights.             The mission concurred with the
recommendation to conduct a rule of law specific portfolio review. The mission
anticipates completion of its review by June 30, 2011. Based on the mission’s described
actions we consider a management decision reached on Recommendation 2.

Regarding Recommendation 3, the draft report audit recommended that USAID/Mexico
re-compete the contract for technical services or prepare the appropriate justification
required by the Competition in Contracting Act of 1984 for other than full and open
competition. The mission did not concur with this recommendation stating that the
Regional Contracting Officer followed Agency procedures in determining the type of
award mechanism to use. As well, the mission followed Agency policy in obtaining
approval to use the ENGAGE IQC, which resulted in soliciting offers from the IQC
holders. By providing all IQC holders, the opportunity to compete the mission states that
it complied with the Federal Acquisition Regulations.

The audit does not dispute the fact that the mission awarded the task order through a
competitive process amongst the ENGAGE IQC holders. The issue highlighted by the
audit is that the ENGAGE IQC statement work awarded by the Office of Democracy and
Governance was not the appropriate contract mechanism to use for purposes of
contracting for the work required under USAID/Mexico’s rule of law program.



                                                                                      14
The overarching EGNAGE IQC allows for work in three areas. The only area that could
reasonably allow work in the rule of law sector is one that speaks to the incorporation of
anticorruption promotion in "other" sectoral/sub-sectoral areas. Thus, rule of law
activities funded under the ENGAGE IQC need to focus on the promotion of
anticorruption.

The task order issued under this IQC for the work in Mexico did include a component
that directly focused on promoting anticorruption. However, MSI only spent about 6
percent of its FY2010 funds on the activities directly related to anticorruption and, in
FY2011, only plans to spend about 5 percent of its funding on these activities. The
remainder of MSI’s funds and efforts relate to activities that, at most, relate only
minimally to promoting anticorruption. In summary, while a small element of this task
order did focus on promoting anticorruption, the majority of the work did not.

Our conclusion remains that the differences in the work are material enough to question
the Agency’s compliance with Federal Acquisition Regulation 16.505(a)(2) and USAID’s
supplemental policy to ADS 302. Therefore, we request the mission seek an
independent technical decision from either the Contract Review Board or the USAID
Ombudsman to make a determination if USAID complied with the Federal Acquisition
Regulations in approving the award of the MSI task order under the ENGAGE IQC.
Provide the Regional Inspector General/Salvador the determination for our review and
decision on this recommendation.

Regarding Recommendation 4 (Recommendation 5 previously), the draft report audit
recommended that USAID/Mexico revise its current performance indicators and
associated targets for the rule of law program so that they will assess progress toward
the program’s overall goals and objectives.             The mission concurred with the
recommendation further explaining that it was in the process of revising the program
indicators. In addition, as part of the contract modification, the mission intends to reduce
the number and refocus the indicators to assess more accurately the progress towards
the program’s overall goals and objectives. The mission anticipates having the revised
indicators in place by April 30, 2011. Based on the mission’s described actions we
consider a management decision reached on Recommendation 4.

Regarding Recommendation 5 (Recommendation 6 previously), the draft report audit
recommended that USAID/Mexico develop a Performance Management Plan (PMP) for
the rule of law program. The mission did not concur with the recommendations.
Considering the mission’s comments and additional review of the evidence collected
during the fieldwork, we revised this recommendation for USAID/Mexico to update its
PMP. The mission concurred that its PMP did not include the full gamut of programs
that flow in the broader strategy and did not incorporate the current rule of law programs.
The mission plans to update the PMP in concert with its reorganization to stand-up a
Merida Initiative office, which it anticipates to have operational by July 2011, discussed
in response to Recommendation 1. Based on the mission’s described actions we
consider a management decision reached on the revised Recommendation 5.

Regarding Recommendation 6 (Recommendation 7 previously), the draft report audit
recommended that USAID/Mexico strengthen its internal controls so that technical
officers implement their delegated duties in accordance with USAID policy. The mission
concurred with the recommendation explaining specific steps that it has taken to


                                                                                         15
strengthen its internal controls. The mission now intends to develop contingency
policies to minimize adverse impacts as a result future shortages in staff and experience.
The mission anticipates completing this action by July 31, 2011. Based on the mission’s
described actions we consider a management decision reached on Recommendation 6.

Regarding Recommendation 7 (Recommendation 8 previously), the draft report audit
recommended that USAID/Mexico establish procedures for systematically following up
with training participants to assess the impact and effectiveness of training. The mission
concurred with the recommendation explaining how it is working internally to improve in
this area as well as with the contractor to develop a formal system for evaluating the
effectiveness of training. The mission anticipates having its plans implemented by June
30, 2011. Based on the mission’s described actions we consider a management
decision reached on Recommendation 7.

Regarding Recommendation 8 (Recommendation 9 previously), the draft report audit
recommended USAID/Mexico institute procedures to consistently collect and input
training data into the USAID training network. The mission concurred with the
recommendation explaining what it has done thus far to guide the contractor to improve
on its reporting practices. As well, the mission is requiring the contractor to make
retroactive adjustments to prior training data submitted in accordance with USAID policy.
The mission anticipates completion of this task by March 15, 2011. Based on the
mission’s described actions we consider a management decision reached on
Recommendation 8.




                                                                                       16
                                                                             Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards 6. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The objective of the audit was
to determine if USAID/Mexico’s rule of law and human rights program was achieving its
main goals and if its program reporting was providing stakeholders with complete and
accurate information on the progress and the results achieved.

In planning and performing the audit, we assessed the mission’s controls related to its
rule of law program. The management controls identified included the mission
performance management plan (PMP), mission data quality assessments, site visit
reports by the contracting officer’s technical representative (COTR), program progress
reports, and e-mails and memos that documented decisions reached between mission
staff and program implementers.

The audit covered the rule of law program’s activities under the mission’s strategic
objective, “Ruling Justly: More Responsive, Transparent Governance.” The Regional
Inspector General conducted the audit in Mexico, in the cities of Mexico City, Oaxaca,
Chihuahua, and Mexicali, from August 23 to September 10, 2010. Our audit focused on
rule of law activities performed under the $44 million contract with Management Systems
International (MSI), implemented from July 1, 2009 through June 30, 2012, and the
activities under the $1 million grant with the United Nations High Commissioner for
Human Rights (UNHCHR) implemented from August 3, 2009 to September 30, 2011.
Additionally, the audit included the $14.4 million contract with Management Sciences for
Development (MSD) implemented from September 30, 2007 to March 31, 2010. As of
June 30, 2010, USAID/Mexico Rule of Law and human right’s program had obligated
$26 million expended $18 million for these three awards. Our audit primarily focused on
rule of law program activities implemented during fiscal years 2009 and 2010.

Methodology
To answer the first objective, we obtained an understanding of what the mission
intended to accomplish under the rule of law and human rights program and its expected
results as of the end of the audit period. We interviewed USAID/Mexico officials,
including the Democracy and Governance COTRs and agreement officer’s technical
representatives, financial analysts, program officers, U.S. Embassy officials from the
Departments of Justice and Homeland Security, implementing partners, and
beneficiaries. We also interviewed MSI and UNHCHR officials. We reviewed the
agreement and contract terms and applicable policies and procedures. We gained an
understanding of how USAID/Mexico’s program designed, monitored, and measured

6
    Government Auditing Standards, July 2007 Revision (GAO-07-731G)


                                                                                     17
program results. Based on the collective results, we determined the progress of each
major task toward the achievement of the main goals stated in the award documents.

In assessing the accuracy of reported results, we established a materiality threshold of
95 percent. If we could verify that the difference between reported and documented
results was less than 5 percent, we considered the reported results accurate.

To answer the second objective, we focused primarily on the information that
USAID/Mexico had reported to USAID/Washington in its performance reports. We
determined the correlation between the indicators selected to report the results and the
program’s field-level activities. We traced reported results of projects to the relevant
source documents to verify the number of people trained.

During site visits, we verified the accuracy of the reported project status, verified that the
project site complied with USAID requirements, and observed and discussed the quality
of the activities. We interviewed local officials to determine the impact of the activities.
We also ascertained whether local officials and beneficiaries were aware of the source
of funding for the projects.

We determined what monitoring was done by USAID/Mexico’s designated technical
representatives by reviewing site visit reports and interviewing officials of USAID/Mexico,
MSI, and UNHCHR. To determine the impact of USAID/Mexico’s rule of law program,
we interviewed officials from USAID, implementing partners, beneficiaries, and the
Government of Mexico.




                                                                                           18
                                                                                Appendix II




MANAGEMENT COMMENTS
                                                                         United States Embassy
                                                                             Mexico City, Mexico




                                      MEMORANDUM
DATE:          December 22, 2010

TO:            Regional Inspector General/San Salvador Catherine Trujillo

FROM:          USAID/Mexico Acting Mission Director Kay Freeman /s/

SUBJECT:       Audit of USAID/Mexico’s Rule of Law and Human Rights Program
               (Report Number 1-523-11-00X-P)

Please find below USAID/Mexico’s position on the recommendations contained in
the subject audit report.

Recommendation 1. We recommend that USAID/Mexico exert technical control over
the contract and require Management Systems International to develop an
implementation strategy that outlines how it intends to identify the sites where it intends
to work and the methodologies it intends to deploy for identifying the training needs and
execution of training.

USAID/Mexico concurs with the recommendation and has already taken measures to
increase technical control over the Contractor and to adjust the implementation strategy.
The strategy adjustment is currently underway through ongoing guidance and a
contractual amendment, and USAID/Mexico anticipates that final action to implement
this recommendation will be completed by April 30, 2011.

With respect to increased technical control, in July 2010, USAID/Mexico designated a
mid-level COTR to manage the program. The new COTR, who is also the Director of
the Office of Democracy and Governance (DG), has over a decade of USAID experience
in democracy and governance programming. Additionally, the DG staff’s responsibilities
were realigned to provide a greater focus on managing for results under each program
component. Two members of the USAID/Mexico democracy team are now responsible
for monitoring and evaluating the full range of rule of law training methodologies and
ensuring that they contribute to effective and sustainable results.

Furthermore, the COTR is in the process of amending the contract with Management
Systems International (MSI) to ensure that it has a strategic geographic and technical
focus and that it targets sustainable measures to strengthen Mexican justice institutions
rather than emphasizing training judicial operators. Also, the COTR has taken action on


                                                                                          19
key personnel, including replacing the Chief of Party (COP) of the Rule of Law III
program. USAID/Mexico has consistently relayed the new strategic direction to the
Contractor since August 2010 in regular meetings, in an email sent to MSI in September
2010 outlining the new technical direction, and in USAID/Mexico’s official feedback to
the proposed second-year workplan sent to the Contractor in October 2010.

Since assuming management duties of the contract, the COTR has also taken several
measures to develop a more effective implementation strategy. The new direction
includes specific criteria for identifying target sites where the program will work and has
considerably reduced the abundance of activities implemented in non-target sites.
USAID/Mexico has engaged with various stakeholders such as the Government of
Mexico (GOM) at both the national and sub-national level, civil society experts, other
donors, and academics and other sector experts to target needs and identify current
gaps in the implementation process of Mexico’s justice sector reform efforts. This will
help USAID/Mexico measure the impact of past and current programming and exert
greater technical control. At the federal level, the Rule of Law III program will focus on
advancing the legislative and policy framework of justice sector reform. A summary of
USAID’s recommendations are included within the contract amendment currently
circulating for approval and were relayed to MSI as part of the annual workplan review.

It is important to highlight that the MSI program was developed before several
interagency partners were engaged in justice sector reform. As a result, the design was
necessarily broad and covered a wide range of technical areas identified by the GOM
and the USG to be addressed through the Merida Initiative to assist Mexico’s efforts to
adequately prevent and prosecute crimes. Because other USG agencies are now
engaged in justice sector reform, USAID/Mexico has scaled back certain elements of its
program and focused on specific challenges and in areas where USAID has a
comparative advantage. As a result, the broader USG justice sector reform
programming, as well as USAID’s specific portion of it, are well-positioned for success.

As part of a strategic planning session in mid-December that included the participation of
USAID/Washington regional leadership, USAID/Mexico has agreed (pending appropriate
authorization) to amend its current organizational structure by creating and adequately
staffing a Merida Initiative office. This office would increase both senior level technical
advisors for rule of law as well as administrative and support staff to assist with labor
intensive reporting requirements associated with the Merida Initiative. More adequate
staffing levels will better position the Mission to exert even greater technical control over
the Contract. USAID/Mexico anticipates that the new office will be fully operational by
July 2011.


Recommendation 2. We recommend that USAID/Mexico conduct a portfolio review to
examine the strategic and operational issues and determine whether USAID-supported
activities are supporting the implementation of criminal justice reforms at the federal and
state levels and strengthening civil society organizations’ promotion and oversight of
human rights.

USAID/Mexico conducted two regular portfolio reviews that closely examined rule of law
programming in FY 2010, with the most recent one held on May 26-27, 2010. In
addition, USAID/Mexico is providing opportunities for staff to discuss the development
issues confronting Mexico, as well as Mission strategic and operational issues both in


                                                                                          20
formal (portfolio review) and informal (program coordination meetings) settings. In
addition to internal portfolio reviews, USAID/Mexico frequently reviews the performance
of its rule law program with interagency counterparts engaged in the sector.

While USAID/Mexico has conducted regular portfolio reviews of the program, the
Mission concurs with conducting a ROL-specific portfolio review to examine strategic
and operational issues associated with the program and to ensure that USAID-supported
activities are addressing the implementation of criminal justice reforms at the federal and
state levels, while strengthening civil society organizations’ promotion and oversight of
human rights.

The target date for completion of action on this recommendation is June 30, 2011,
enabling time for the Contractor to demonstrate results under the amended contract.


Recommendation 3 ( listed as 2 in draft audit report). We recommend that
USAID/Mexico either re-compete the contract for technical services or prepare the
appropriate justification required by the Competition in Contracting Act of 1984 for other
than full and open competition.

USAID/Mexico does not concur with the findings and recommendation. The Regional
Contracting Officer (RCO) followed Agency’s procedures contained in ADS 304 and
determined that Acquisition was the appropriate instrument because the work to be
performed fell under the Merida Initiative and, due to the interagency and political
sensitivities, USAID needed to be actively involved in directing the awardee’s
performance.

Once it was determined that Acquisition and not Assistance was required, the RCO
worked with the DG Office and the Mission to determine how best to solicit the award.
Based upon the March 6, 2009 email approval from the DCHA/DG CTO that the work to
be performed under the task order was within the scope of the ENGAGE IQC, and in
accordance with the ordering procedures of the IQC, the RCO determined that the
ENGAGE IQC was the best contracting vehicle available to the Mission.

According to AAPD 02-12 and the Ordering Procedures of the subject IQC, once the
CTO has determined that the work to be performed is within the scope of the IQC, the
RCO is able to solicit offers from the IQC holders as a competitive task order.

The RCO acted in accordance with FAR 16.505 (b)(1) Fair Opportunity in providing all
holders of the IQC an opportunity to compete for task order. As the task order was fully
competed among the six IQC holders, the Mission disagrees with the recommendation
that the task order should be re-competed or that a justification for other than full and
open competition is required.

Additionally, the award was challenged by one interested party and the award decision
and solicitation was upheld by the Agency’s Ombudsman.

Therefore, based on the above explanation the Mission requests that the
recommendation be closed on issuance.




                                                                                        21
Recommendation 4. We recommend that the USAID/Mexico Mission Director facilitate
agreements with interagency counterparts and with the Government of Mexico on how
best to strategically coordinate resources and technical expertise to support the
objectives of the Merida Initiative.

USAID/Mexico does not concur with this recommendation.

Interagency coordination on the Merida Initiative at U.S. Embassy Mexico City,
particularly in the area of justice sector reform, is frequently noted as a success story. It
is the experience of USAID/Mexico that the interagency relationships in Mexico are
strong, particularly between the Narcotics Affairs Section (NAS), the Department of
Justice (DOJ) and USAID. Representatives from the Government of Mexico (GOM) and
the Embassy Front Office regularly recognize and applaud USAID and the
aforementioned agencies on our collective ability to coordinate and collaborate
effectively at Post.

The following mechanisms exist to support coordination efforts at Post:

      Weekly Law Enforcement Working Group Meetings with several USG agencies
       involved in law enforcement activities including USAID, NAS, DOJ, Immigration
       and Customs Enforcement (ICE), Federal Bureau for Investigation (FBI), and
       several others. Meetings are held every Tuesday and are led by either the
       Ambassador or Deputy Chief of Mission.
      Weekly Merida Implementation Conference calls with USG counterparts in
       Washington, DC. Participants from U.S. Embassy Mexico City include USAID
       NAS, DOJ, and the Political Section.
      Regular Merida implementation meetings and bilaterals between the USG and
       GOM to ensure program coordination and effectiveness.
      Interagency working groups that meet regularly (at least once a month and often
       several times per week) around issues such as the rule of law/justice reform,
       trafficking in persons, human rights and money laundering.

In addition to the aforementioned mechanisms to enhance coordination, USAID/Mexico
is in frequent, regular contact with key GOM counterparts at the federal, state and local
levels including the Police (SSP), Ministry of Justice (PGR), Office of the President
(Presidencia), Ministry of Health, Ministry of Education etc. Frequently, USAID/Mexico
meets with counterparts together with interagency partners. Further, USAID/Mexico
provides weekly, monthly and quarterly activity reports to the U.S. Embassy’s Merida
Coordinator (NAS Section Chief), some of which are then submitted to the GOM’s
Ministry of Foreign Affairs (SRE). These reports include activity dates, descriptions and
results, as well as information on participating USG and GOM agencies.

The Embassy’s Interagency Justice Sector Reform group jointly led by USAID, DOJ and
NAS has developed metrics and indicators to track the success of Merida activities. The
three USG agencies work closely together to ensure that programs are complimentary
and that assistance needs are met by the agency that demonstrates the greatest
comparative advantage. As a result, each agency is responsible for implementing
specific Merida Initiative line items that correspond to their comparative advantage. In
November, each agency jointly submitted a proposal for how justice sector reform
programming would be divided in the coming years, again focusing on needs and the



                                                                                           22
expertise of each USG institution. The three agencies meet independently on a regular
and ad hoc basis, jointly with GOM counterparts, on specific matters and during
quarterly Merida Initiative bilaterals and come to consensus on how resources will be
invested to most effectively support Merida Initiative objectives. Differences are
resolved in a timely, effective and collaborative manner for the collective good of the
USG and GOM.

USAID/Mexico feels that the challenge in coordination is the manner in which the Merida
Initiative has been funded, and the labor intensive reporting requirements that the
funding mechanism has triggered. For example, in the recent FY 2010 supplemental
bill, $175 million was appropriated as INCLE funding. Although there was an
understanding in Congress that some of this money would go to other agencies,
including USAID, these agencies had to go through a labor intensive reporting process
to explain and justify how much was needed and to what end. While negotiations in
Washington become prolonged, the interagency team at Post quickly arrives at an
agreement on the best way forward.

Under USAID’s Interagency Agreements with DOJ and ICE, the AOTR is in the process
of working with both agencies to ensure effective and timely program implementation
and management.

In conclusion, interagency coordination is one of the greatest strengths of Merida
Initiative implementation at Post. Thus, we request that this recommendation be
removed from the audit report.


Recommendation 5. We recommend that USAID/Mexico revise its current performance
indicators and associated targets for the rule of law program so that they will assess
progress toward the program’s overall goals and objectives.

USAID Mexico concurs with this recommendation.

USAID/Mexico is in the process of revising its ROL program indicators. Further, as part
of the contract amendment process with the implementing partner, performance
indicators are being significantly reduced in number and re-focused to assess more
accurately progress towards the program’s overall goals and objectives. The goal is to
develop impact rather than output indicators.

In October 2010, USAID/Mexico initiated a formal process of working with the Contractor
to identify appropriate indicators that are consistent with the program’s new strategic
direction referenced above and more adequately track results. Subsequently, while MSI
may continue to use output indicators focused on numbers trained for their internal
management needs, USAID/Mexico is currently working with them to develop
measurable impact indicators that are within the control of Contractor and will assess
progress toward the Program’s overall goals and objectives.

The target date for completion of final action on this recommendation is April 30, 2011.


Recommendation 6. We recommend that USAID/Mexico develop a Performance
Management Plan (PMP) for the rule of law program.


                                                                                       23
USAID/Mexico does not concur with this recommendation.

This recommendation does not appear to be consistent with the auditors’ findings which
are primarily related to contract management, oversight, and recommendation No. 7
which deals with internal controls.

The Democracy and Governance (DG) team has a Performance Management Plan
(PMP) in place for the rule of law program, which was provided to the auditors. The
democracy team is currently in the process of updating this PMP to include the full
gamut of programs that flow into the broader DG office strategy and incorporating new
rule of law programs. As mentioned above, USAID/Mexico has taken steps to amend
the indicators used to track progress of the flagship ROL program. Conclusions from
this exercise will be incorporated into the updated PMP.

The USAID/Mexico Mission Strategy was last updated in 2003 per Agency policy at the
time. The operating environment within Mexico has changed significantly since then. As
the Agency reintroduces the strategic planning process, it should be noted that
USAID/Mexico is not currently designated as a pilot mission for the new CDCS.
However, the DG Office, along with the rest of the Mission, is in the process of
developing a more cohesive strategy and higher level framework within which to work.
The DG office looks forward to identifying ways in which rule of law programming can
support broader Mission goals and priorities. Measures have already been taken to
develop a Mission-wide strategy on issues relevant to violence and security that crosscut
interventions in rule of law. For example, a Merida Initiative Pillar IV strategic planning
session was held in December, 2010, with staff from USAID/Mexico,
USAID/Washington, GOM, and other USG agencies at the Embassy. Conclusions from
this interagency and bi-national exercise will also be used to strengthen the rule of law
PMP to ensure that programs contribute to broader Merida Initiative goals and facilitate
optimal coordination amongst key actors. When the Merida Initiative Office is
developed, USAID/Mexico will draft a new PMP reflecting the new office structure.

In conclusion, we do not concur with this recommendation as the DG team already has a
PMP in place for the rule of law program. However, the DG team recognizes that the
PMP needs to be updated to include the full gamut of programs that flow into the
broader DG office strategy. As such, we request that the recommendation be modified
to state that a revised PMP be developed.


Recommendation 7. We recommend that USAID/Mexico strengthen its internal controls
so that technical officers implement their delegated duties in accordance with USAID
policy.

USAID/Mexico concurs with this recommendation.

Some steps that USAID/Mexico has already taken and is in the process of taking to
strengthen internal controls include:

      In July 2010, USAID began instituting weekly internal discussions between
       USAID/Mexico and Contractor on programmatic and operational issues.
      Completed a Data Quality Assessment for the ROL program in October 2010.


                                                                                        24
      Revamped the hard copy and electronic filing system.
      Updated and completed all Activity Checklists for DG office programs in October
       2010 (which are now on file).
      Conduct site visits for programs managed by the DG office (guidance has been
       provided to the democracy team to complete all trip reports, including those
       covering prior site visits).
      More focused reporting from Contractor that tracks closely with Merida Initiative
       components.
      All AOTRs/COTRs now have the necessary training, which was completed in
       August 2010.
      Developed a “task list” that all DG staff contribute to in order to keep people
       apprised of what everyone is working on and to ensure that important actions do
       not fall through the cracks.
      Filled both the USDH Supervisory Democracy Officer and USDH Democracy
       Officer positions.
      The DG Office Director will oversee and ensure compliance with Mission policies
       for trip reports.
      Assigning administrative backstops to monitor, oversee and manage more
       effectively all components of rule of law programming.

The COTR for the ROL program provided timely feedback on the workplan and, at the
request of the Regional Contracting Officer (RCO), is requiring and reviewing quarterly
workplans until the contract amendment is finalized. As detailed above, USAID Mexico
is currently in the process of implementing this recommendation. In addition,
USAID/Mexico will hire additional staff and, at the recommendation of the RCO, plans to
hire a USPSC or TCN to assist with programmatic management and oversight, including
contract budget administration, compliance with branding requirements, etc.
Experienced new staff would serve as the COTR for the ROL programs, enabling the
Office Director to provide strategic technical direction, oversee implementation, mentor
USAID/Mexico staff engaged in managing rule of law programming and ensure
compliance to all internal processes and controls.

One of the issues facing USAID/Mexico over the past year has been difficulty filling
USDH positions in a timely manner. The Office Director positions for both DG and EG
remained vacant for almost a year. Since both incumbents of these positions arrived in
early summer, the Mission has been able to make significant improvements in internal
management. Given the pending dramatic staffing cuts of overseas positions in the LAC
Bureau and the on-going need to staff other Bureaus, the Agency and the LAC Bureau
will need to develop contingency policies to insure that management of LAC Missions is
not adversely impacted by shortages of experienced staff.

The target date for completion of final action on this recommendation is July 31 2011.


Recommendation 8. We recommend that USAID/Mexico establish procedures for
systematically following up with training participants to assess the impact and
effectiveness of training.

USAID/Mexico concurs with this recommendation.




                                                                                         25
As part of the amendment process for the Rule of Law III Program, USAID/Mexico and
the Contractor are working together to develop a formal system for evaluating the
effectiveness of the trainings. The system will be applied exclusively to the ROL III
program and will allow both USAID/Mexico and the Contractor to better determine
whether the trainings are having their desired impact or if adjustments need to be made
to better tailor the trainings to the needs of participants. Once the system is finalized,
the Contractor will write up the procedures and USAID/Mexico will approve it.

To implement the new system, USAID/Mexico has designated two staff members in the
DG office to work on monitoring and evaluation issues for this program and others. One
staff member has a background in training and education, and is in the process of
reviewing training methodologies and analyzing best practices from other Missions.
Further, USAID/Mexico has been advocating to Rule of Law partners that all training
activities require greater follow up to measure and guarantee programmatic impact.
Rule of law programs will not rely on trainee evaluation forms, but rather follow up
measures to ensure that training is effectively being applied. Based on language in the
contract amendment, MSI will also build the capacity of state and federal judicial
institutions to more effectively monitor and evaluate GOM-led reform efforts, which will
help in the refinement of policy, interagency coordination and compilation of
communications plans, as well as lead to a more sustainable approach to measuring
results and impact of the reforms.

The target date for completion of final action on this recommendation is June 30, 2011.

Recommendation 9. We recommend that USAID/Mexico institute procedures to
consistently collect and input training data into the USAID training network.

USAID/Mexico concurs with this recommendation.
The Mission has already provided verbal and written guidance to the Contractor
instructing them to follow ADS 253.3.4.5 when reporting on training activities. This
language has also been incorporated into the amendment.

The instruction given to the Contractor ensures that there is a shared, consistent
definition for what constitutes training between USAID/Mexico and the Contractor, as
well as a clear methodology for consistently collecting training data. This action will
ensure that USAID/Mexico maintains a more complete and accurate training database,
resulting in more accurate reports.

In December 2010, USAID/Mexico instructed the Contractor to retroactively adjust all
training data submitted through quarterly reports to ensure consistency with
USAID/Mexico criteria and ADS 253.3.4.5.

Target date for completion of final action is March 15th, 2011.




                                                                                        26
                                                                              Appendix III


                Statement of Work Comparisons
            ENGAGE Indefinite Quantity Contract (IQC)
       USAID/Mexico’s Task Order with Management Systems
                          International

ENGAGE IQC address three broad areas          MSI task order address two broad areas
   Public financial, administrative, and     Support the implementation of the criminal
    regulatory measures that promote          justice reforms at the federal and state
    transparency,    accountability,  and     levels while strengthening transparency
    effective governance                      and accountability. Activities will support—

                                                 Adherence to the Mexican Federal
   Civil society advocacy on behalf of           Constitutional Reforms
    government integrity, implementation of      Institution Building and Rule of Law
    anticorruption   programs,      and/or       Judicial Exchanges
    oversight of public functions and            Pretrial Case Resolution Alternatives
    authorities                                  Continuing Police Education

                                            Strengthen justice sector institutions’ ability
                                            to reduce violent and organized crime
                                            without violating human rights and
                                            strengthen civil society organizations’
   Incorporation     of     anticorruption
                                            human rights oversight and promotion.
    promotion into other sectoral and
                                            Activities will support—
    subsectoral areas, such as health and
    education,      natural       resource
    management, corporate governance,  Protecting, Prosecuting, and Preventing
    or into key aspects of democracy            Trafficking in Persons
    promotion such as rule of law,  Victim Restitution
    legislative   oversight,   or     local  Human Rights Training for Police,
    government strengthening                    Prosecutors and Other Officials
                                             Support          for    Human        Rights
                                                Nongovernmental Organizations
                                             Support to Citizen Participation Councils




                                                                                        27
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
             Tel: 202-712-1150
             Fax: 202-216-3047
            www.usaid.gov/oig
